    OFFICE OF JUSTICE PROGRAMS
BUREAU OF JUSTICE ASSISTANCE GRANT
          AWARDED TO THE
GEAUGA COUNTY PROSECUTOR’S OFFICE
           CHARDON, OHIO


    U.S. Department of Justice
  Office of the Inspector General
           Audit Division


    Audit Report GR-50-09-003
            March 2009
                   OFFICE OF JUSTICE PROGRAMS
               BUREAU OF JUSTICE ASSISTANCE GRANT
                        AWARDED TO THE
               GEAUGA COUNTY PROSECUTOR’S OFFICE
                         CHARDON, OHIO

                          EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of the Geauga County, Ohio, Prosecutor’s
Office Grant awarded by the Office of Justice Programs (OJP), Bureau of
Justice Assistance (BJA). According to its Edward Byrne Memorial State and
Local Law Enforcement Discretionary Grant Program application, the main
purpose of the grant was to provide funding to the United States Marshals
Service Northern Ohio Violent Fugitive Task Force (NOVFTF), spearheaded by
the United States Marshals Service (USMS), for its district-wide law
enforcement effort dedicated to the pursuit, apprehension, and prosecution of
adult fugitives on outstanding state and federal felony warrants. The Geauga
County Prosecutor’s Office was awarded $172,765 under grant
number 2006-DD-BX-0230. We tested the Geauga County’s accounting
records to determine if reimbursements claimed for costs under the grant
were allowable, supported, and in accordance with applicable laws,
regulations, guidelines, and terms and conditions of the grant, and to
determine program performance and accomplishments.

       The objective of our audit was to review performance in the following
areas: (1) internal control environment, (2) grant expenditures including
personnel, (3) budget management and control, (4) grant requirements,
(5) program performance and accomplishments, (6) drawdowns, and
(7) financial status and progress reports. We determined that indirect costs,
program income, subgrantees, and local match were not applicable to this
grant.

      As of April 30, 2008, the grantee had been reimbursed $107,615. We
performed detailed testing of $69,718, or 65 percent of the $107,631
expended by the grantee through April 30, 2008. We examined the Geauga
County Prosecutor’s Office accounting records, financial and progress
reports, and operating policies and procedures. Our testing revealed that
the grantee did not always appropriately classify personnel-related costs, did
not have adequate supporting documents for all grant-related expenditures,
and requested reimbursement for costs in budget categories that were not
approved by OJP. Our findings are summarized below.
      The USMS Office for the Northern District of Ohio utilized the Geauga
County Prosecutor’s Office to apply for funding to support the NOVFTF.
However, neither the USMS nor the Geauga County Prosecutor’s Office
established an internal control environment that adequately ensured grant
funds were properly expended and fully supported by adequate
documentation. The Grant Administrator stated that she considered the
USMS office in Cleveland, Ohio, to be the party ultimately responsible for the
grant. Further, if the USMS in Cleveland, Ohio, requested payment for a
task force billing but did not provide supporting documentation she still
approved the bill for payment. As a result of the weak internal control
environment, insufficient monitoring of grant activity, and unapproved
budget deviations, we identified funds expended in unapproved budget
categories, pre-award charges, and numerous other questioned and
unsupported expenditures totaling $80,416.

        The Chief Deputy for the USMS for the Northern District of Ohio
provided information that the NOVFTF received additional funding from
several other DOJ sources. The NOVFTF makes about 2,000 arrests every
6 months and specific arrests are not attributable to the grant. There were
no details in the grant application to assess the impact of this award on
specific task force activities. Because of these factors, we cannot conclude
whether the NOVFTF was accomplishing or making adequate progress in
fulfilling the objectives of the grant.

      Our report contains 19 recommendations to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objectives, scope, and methodology appear
in Appendix I of the report.
